No. 20-5069

IN THE SUPREME COURT OF THE UNITED STATES

Pablo Enrique Rosado Sanchez— PETITIONER

VS.

Banco Santander Puerto Rico — RESPONDENT
PROOF OF SERVICE
I, Pablo Enrique Rosado Sanchez do swear or declare that on this date, October 7, 2020
as required by Supreme Court Rule 29 I have served the enclosed
PETITION FOR REHEARING OF DENIAL OF PETITION FOR WRIT OF CERTIORARI
AND MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
on each party to the above proceeding or that party's counsel, and on every other person required
to be served, by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by delivery
to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Erasmo Reyes Pena, Defendant Attorney
221 Plaza, Suite 802
221 Ave. Ponce de Leon
Phone: 787-281.8787; Fax: 787-281-855
San Juan P.R. 00917-1804
I declare under penalty of perjury that the foregoing is true and correct.

Executed on Wednesday, October 7 2020

Additional material
from this filing is
available in the
Clerk's Office.

